c.
NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
DAVEY LEWIS,
Appellant,
v.
STATE OF FLORIDA,
Appellee.

)
)
)
)
)
)
)
)
)

Case No. 2D 18-4698

Opinion filed August 19, 2020.
Appeal from the Circuit Court for Polk
County; J. Kevin Abdoney, Judge.
Howard L. Dimmig, II, Public Defender,
and Maura J. Kiefer, Special Assistant
Public Defender, Bartow, for Appellant.
Ashley Moody, Attorney General,
Tallahassee, and Laurie Benoit-Knox,
Assistant Attorney General, Tampa,
for Appellee.
PER CURIAM.

Affirmed.
'

NORTHCUTT, SILBERMAN, and ROTHSTEIN-YOUAKIM, JJ., Concur.

/?ppx- £>
IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

November 05, 2020
CASE NO.: 2D18-4698
L.T. No.: CF15-009256-XX
DAVEY LEWIS
Appellant / Petitioner(s)

v.

STATE OF FLORIDA
Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's motion for rehearing, clarification, and certification is stricken as
unauthorized.
I HEREBY CERTIFY that the foregoing is a true copy of the'original court order.
Served:
ATTORNEY GENERAL, TAMPA
LAURIE MARIE BENOIT-KNOX, A.A.G.
P.D.10 S.A.P.D.
STACY BUTTERFIELD, CLERK
mep

MaiyEHzabethKuenzel

Clerk

S’ ■'

HOWARD L. DIMMIG, I I, P. D.
MAURA J. KIEFER, S.A.P.D.
DAVEY LEWIS

Filing # 56258446 E-Filed 05/10/2017 03:10:02 PM
IN THE CIRCUIT COURT, POLK COUNTY, FLORIDA

c

STATE OF FLORIDA
Plaintiff,
CASE NO. 15CF009256XX

vs.
DAVEY EUGENE LEWIS,
Defendant.

MOTION TO SUPPRESS CONFESSIONS OR ADMISSIONS
Defendant, through counsel and pursuant to Fla. R. Crim. P: 3.190(h), moves this Honorable
Court to suppress evidence of certain statements and admissions allegedly made by Defendant.
EVIDENCE TO BE SUPPRESSED:
Statements or admissions made by Defendant to Detective Brett Socha of the Polk
1.
County Sheriffs Office on December 2 and 3, 2015.
GROUNDS FOR SUPPRESSION:
1.

i

2.
3.

4.

The statements or admissions were made in violation of Defendant’s right to due
process as guaranteed by the Fifth Amendment of the United States Constitution.
The statements or admissions were not voluntarily made.
The statements or admissions were made under the influence of an inebriating
amount of alcohol which greatly affected Defendant’s ability to make a knowing,
intelligent and voluntary statement.
The statements or admissions were the product of threats and promises made by law
enforcement against the Defendant, to wit:
a. On December 2, 2015, Det. Socha informed Defendant that if he admitted to the
allegations made by the alleged victim, Emily Hill, he would assist Defendant in
receiving a sentence of two years prison.
b. On December 2, 2015, Det. Socha informed Defendant that if he did not admit to
the allegations made by the alleged victim, Emily Hill, he would have child
welfare authorities (DCF) take custody of the children of his girlfriend, Kammie
Anderson, including Defendant’s son whom she was pregnant with at the time.

FACTUAL BASIS:
1. In 2015, the alleged victim, Emily Hill, was living with Kammie Anderson who at the
time was romantically involved with the Defendant, Davey Lewis.
2. On December 2, 2015, Emily informed school authorities that while at the family home
Mr. Lewis touched her in a sexual manner on multiple occasions while Mrs. Anderson
was in the shower.
3. Law enforcement was immediately notified by school authorities and an investigation
was commenced.
4. Pursuant to this investigation, Detective Brett Socha of the Polk County Sheriff s Office
conducted an interview of Mr. Lewis on December 2,2015.
V

2015CF009256A000XX - Received in Polk 05/10/2017 03:45 PM

Page 47

r

5. Part of the December 2 interview was audio-recorded, and in it Mr. Lewis repeatedly
denied touching Emily in a sexual manner.
6. In another part of the December 2 interview that was not audio-recorded, Det. Socha
made threats if Mr. Lewis did not admit to the allegations, as well as promises of
assistance if he did admit.
7. First, Det. Socha promised Mr. Lewis that he would assist Mr. Lewis in receiving a two
year prison sentence if he would admit Emily’s allegations.
8. Second, Det. Socha threatened Mr. Lewis that if his did not admit Emily’s allegations he
would have DCF take custody of Kammie Anderson’s children including his unborn son
that she was pregnant with at the time.
9. On December 3, 2015, while heavily intoxicated on alcohol, Mr. Lewis was again
questioned by Det. Socha.
10. Prompted by a new round of questioning, and with Det. Socha’s threats and promises
still fresh in his mind, Mr. Lewis said that he did touch Emily is a sexual manner while
Mrs. Anderson showered.
11. Mr. Lewis admitted to doing this on multiple occasions and his admission included
touching Emily beneath her clothes.
12. Mr. Lewis was subsequently placed under arrest and taken to the Polk County Jail.

WHEREFORE, Defendant respectfully moves this Honorable Court to enter an order
suppressing the above described * in this case.

HOWARD L. "REX" DIMMIG, II
Public Defender
/s/GREG BUSHN
GREG BUSHN
FLORIDA BAR #0123020
Assistant Public Defender

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing has been furnished to the
State Attorney's Office by eService this 10th day of May, 2017.

HOWARD L. "REX" DIMMIG, II
Public Defender
/s/GREG BUSHN
GREG BUSHN
FLORIDA BAR #0123020
Assistant Public Defender

2015CF009256A000XX - Received in Polk 05/10/2017 03:45 PM

Page 48

IN THE CIRCUIT COURT OF THE TENTH JUDICIAL CIRCUIT
IN AND FOR POLK COUNTY, STATE OF FLORIDA
CRIMINAL DIVISION

r

CASE NO.: 2015CF-009256
DIVISION: F4
STATE OF FLORIDA,
Plaintiff,
vs.
DAVEY EUGENE LEWIS,
Defendant
ORDER DENYING MOTION TO SUPPRESS CONFESSIONS OR ADMISSIONS
THIS CAUSE came before the Court on June 2,2017, for hearing upon the Defendant’s
Motion to Suppress Confessions or Admissions (“Motion to Suppress”) filed May 10,2017.
Present were the Defendant, Davey Eugene Lewis; counsel for the Defendant, Greg Bushn,
1

Esquire; and counsel for the State of Florida, Jennifer Swenson, Esquire. The Court took
testimony from Detective Brett Socha of the Polk County Sheriff’s Office, and from the
Defendant, Davey Eugene Lewis. The Court received three exhibits in evidence, consisting of
copies of two recorded interviews of the Defendant by Detective Socha and a copy of a recorded
controlled telephone call between the suspect and Kamie Anderson, the Defendant’s paramour.
The Court has considered the Motion to Suppress, the testimony and evidence presented, the
arguments of the parties, and applicable law. The Court makes the following findings of fact and
conclusions of law:
1. There is no credible evidence that Detective Socha represented to the Defendant that
if he aHmiftftH to sexually abusing the minor child victim in this case, Detective Socha could get
him two years in prison versus twenty years if he did not confess.

FILED POLK COUNTY CLERK OF COURTS 06/09/2017 08:58 AM

Page 50

State v. Lewis
2015CF-009256
Order Denying Motion to Suppress Confessions or Admissions
(

2. There is no credible evidence that Detective Socha threatened the Defendant that if
he did not admit to sexually abusing the minor child victim in this case, Detective Socha would
see to it that his paramour’s children, including his unborn child, would be taken away from her
by The Department of Children and Families Services.
3. There is otherwise no evidence that any promises, threats, or other coercive or
overbearing tactics were utilized by Detective Socha in order to get the Defendant to make
statements or admissions in this case.
4. Under the totality of the circumstances, the Court finds the Defendant’s statements to
Detective Socha were freely and voluntarily made.
It is therefore ORDERED that the Motion to Suppress Confessions or Admissions is
DENIED.
DONE AND ORDERED in chambers, Bartow, Polk County, Florida this ^ day of
June, 2017.

J. KEVIN AJKDONEY
GE
CIRC
Copies electronically:
Jennifer Swenson, Esquire (for the State of Florida)
Greg Bushn, Esquire (for the Defendant)

2

FILED POLK COUNTY CLERK OF COURTS 06/09/2017 08:58 AM

Page 51

Additional material
from this filing is
available in the
Clerk's Office.

